<html>
<title> - COPING WITH COMPOUND CRISES: EXTREME WEATHER, SOCIAL INJUSTICE, AND A GLOBAL PANDEMIC</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
                      COPING WITH COMPOUND CRISES:
                   EXTREME WEATHER, SOCIAL INJUSTICE,
                         AND A GLOBAL PANDEMIC

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

                                 OF THE

                      COMMITTEE ON SCIENCE, SPACE,
                             AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 30, 2020

                               __________

                           Serial No. 116-83

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 


       Available via the World Wide Web: http://science.house.gov
       
       
       
       
                            ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
41-454 PDF           WASHINGTON : 2021        
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
LIZZIE FLETCHER, Texas               BRIAN BABIN, Texas
HALEY STEVENS, Michigan              ANDY BIGGS, Arizona
KENDRA HORN, Oklahoma                ROGER MARSHALL, Kansas
MIKIE SHERRILL, New Jersey           RALPH NORMAN, South Carolina
BRAD SHERMAN, California             MICHAEL CLOUD, Texas
STEVE COHEN, Tennessee               TROY BALDERSON, Ohio
JERRY McNERNEY, California           PETE OLSON, Texas
ED PERLMUTTER, Colorado              ANTHONY GONZALEZ, Ohio
PAUL TONKO, New York                 MICHAEL WALTZ, Florida
BILL FOSTER, Illinois                JIM BAIRD, Indiana
DON BEYER, Virginia                  FRANCIS ROONEY, Florida
CHARLIE CRIST, Florida               GREGORY F. MURPHY, North Carolina
SEAN CASTEN, Illinois                MIKE GARCIA, California
BEN McADAMS, Utah                    THOMAS P. TIFFANY, Wisconsin
JENNIFER WEXTON, Virginia
CONOR LAMB, Pennsylvania
                                 ------                                

                      Subcommittee on Environment

              HON. MIKIE SHERRILL, New Jersey, Chairwoman
SUZANNE BONAMICI, Oregon             ROGER MARSHALL, Kansas, Ranking 
LIZZIE FLETCHER, Texas                   Member
PAUL TONKO, New York                 BRIAN BABIN, Texas
CHARLIE CRIST, Florida               ANTHONY GONZALEZ, Ohio
SEAN CASTEN, Illinois                FRANCIS ROONEY, Florida
BEN McADAMS, Utah                    GREGORY F. MURPHY, North Carolina
CONOR LAMB, Pennsylvania


                         C  O  N  T  E  N  T  S

                           September 30, 2020

                                                                   Page

Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Mikie Sherrill, Chairwoman, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    11
    Written Statement............................................    12

Statement by Representative Frank Lucas, Ranking Member, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    13
    Written Statement............................................    14

Statement by Representative Eddie Bernice Johnson, Chairwoman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    15
    Written Statement............................................    15

                               Witnesses:

Dr. Roxane Cohen Silver, Professor of Psychological Science, 
  Medicine, and Public Health, University of California, Irvine
    Oral Statement...............................................    16
    Written Statement............................................    19

Dr. Samantha Montano, Assistant Professor of Emergency 
  Management, Massachusetts Maritime Academy
    Oral Statement...............................................    44
    Written Statement............................................    46

Discussion.......................................................    59

             Appendix I: Answers to Post-Hearing Questions

Dr. Roxane Cohen Silver, Professor of Psychological Science, 
  Medicine, and Public Health, University of California, Irvine..    72

Dr. Samantha Montano, Assistant Professor of Emergency 
  Management, Massachusetts Maritime Academy.....................    75

            Appendix II: Additional Material for the Record

Letter submitted by Representative Mikie Sherrill, Chairwoman, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    80


                      COPING WITH COMPOUND CRISES:

                   EXTREME WEATHER, SOCIAL INJUSTICE,

                         AND A GLOBAL PANDEMIC

                              ----------                              


                     WEDNESDAY, SEPTEMBER 30, 2020

                  House of Representatives,
                       Subcommittee on Environment,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

     The Subcommittee met, pursuant to notice, at 11:35 a.m., 
via Webex, Hon. Mikie Sherrill [Chairwoman of the Subcommittee] 
presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     Chairwoman Sherrill. All right. The hearing will now come 
to order.
     Before I deliver my opening remarks, I want to announce a 
couple reminders to the Members about the conduct of this 
hearing. First, Members should keep their video feed on as long 
as they are present in the hearing. Members are responsible for 
their own microphones. Please also keep your microphones muted 
unless you are speaking. Finally, if Members have documents 
they wish to submit for the record, please email them to the 
Committee Clerk, whose email address was circulated prior to 
the hearing.
     Without objection, the Chair is authorized to declare 
recess at any time.
     Good morning, and welcome to this Environment Subcommittee 
hearing on ``Coping with Compound Crises: Extreme Weather, 
Social Injustice, and a Global Pandemic.'' I would also like to 
welcome our esteemed panel of witnesses and thank them for 
their participation. I'm thrilled to have two women at the top 
of their fields here with us today.
     This hearing is very timely as this is National 
Preparedness Month, which is recognized every September to 
promote family and community disaster planning. This year's 
theme is ``Disasters Don't Wait. Make Your Plan Today,'' which 
is an especially important reminder as our country deals with 
the COVID-19 pandemic and devastating extreme weather events.
     2020 has been a challenging year in so many ways: a 
record-breaking number of extreme weather events, a national 
reckoning with systemic racism, and a global pandemic. From 
January to July, there were 10 weather and climate disasters 
costing over $1 billion each, and this number does not even 
include any of the devastating wildfires that continue to burn 
across the West Coast or the Midwest derecho that destroyed 
homes and cornfields across Iowa and other States, nor the 
extremely active Atlantic hurricane season that has wiped out 
entire towns and brought ``unsurvivable'' storm surge across 
the Gulf Coast region.
     This season of climate and weather disasters compound the 
ongoing COVID-19 pandemic and continued social and 
environmental injustices. Many communities are grappling with 
multiple risks at once: the dueling threat of wildfire or 
hurricane evacuations during shelter-in-place orders, the 
legacy of historic redlining while trying to rebuild post-
disaster, and farmers already reeling from the economic fallout 
due to the pandemic losing their crop to severe storms.
     In my home State of New Jersey, where low-income families 
and small businesses have been particularly devastated, we are 
all hoping we don't have another Hurricane Sandy during this 
abnormally active Atlantic hurricane season.
     As climate change continues to cause more frequent and 
severe weather events, we must be ready to face multiple 
hazards at once. Whether it is several storms in a row, the 
everyday impacts of climate change on vulnerable populations, 
or an extreme weather event during a future pandemic, it is 
extremely important that we understand how these compound 
events interact with each other in order to better prepare for, 
communicate about, and respond to them.
     There remains much uncertainty about the most effective 
risk communication methods during a public health crisis or 
extreme weather event, especially for vulnerable communities. 
Understanding how people perceive risk and respond to warnings, 
especially when faced with multiple threats, is essential to 
informing emergency planning and response. But the Federal 
Government lacks robust funding for emergency management 
research. We will hear today about how improved coordination 
and additional interdisciplinary research and risk assessments 
are needed to bolster our emergency management capabilities.
     When disaster occurs, being able to collect data, 
particularly on social and behavioral responses, in a timely 
manner is crucial to understanding immediate impacts to 
communities. The National Science Foundation's Rapid (Rapid 
Response Research) funding mechanism provides funding for 
proposals with a severe urgency, including research on natural 
disasters or similar unanticipated events. This serves as a 
great model for other agencies to support research related to 
environmental and public health crises that require a Rapid 
funding mechanism.
     As we enter an age where the impacts of disasters will 
continue to be exacerbated by stressors such as climate change 
and social injustice, it is imperative that Congress works to 
improve our country's response to these disasters. Investing in 
interdisciplinary and RAPID funding mechanisms for research 
into these topics, especially as we expect to see more 
compounding crises, will be vital to our success in mitigating 
the impact of these disasters.
     I look forward to today's discussion with our witnesses to 
identify how this Committee can help address some of these 
critical research gaps. Thank you.
     [The prepared statement of Chairwoman Sherrill follows:]

    Good morning, and welcome to this Environment Subcommittee 
hearing on Coping with Compound Crises: Extreme Weather, Social 
Injustice, and a Global Pandemic. I would also like to welcome 
our esteemed panel of witnesses and thank them for their 
participation today.
    This hearing is very timely as this is National 
Preparedness Month, which is recognized every September to 
promote family and community disaster planning. This year's 
theme is ``Disasters Don't Wait. Make Your Plan Today'' which 
is an especially important reminder as our country deals with 
the COVID-19 pandemic and devastating extreme weather events.
    2020 has been a record year in a myriad of ways: a record-
breaking number of extreme weather events, a national reckoning 
with systemic racism, and a global pandemic. From January to 
July, there were ten weather and climate disasters costing over 
$1 billion dollars each--this number does not include any of 
the devastating wildfires that continue to burn across the West 
Coast, the Midwest derecho that destroyed homes and cornfields 
across Iowa and other states, nor the extremely active Atlantic 
hurricane season that has wiped out entire towns and brought 
``unsurvivable'' storm surge across the Gulf Coast region.
    This season of climate and weather disasters compound, or 
layer onto, the ongoing COVID-19 pandemic and continued social 
and environmental injustices. Many communities are grappling 
with multiple risks at once: the dueling threat of wildfire or 
hurricane evacuations during shelter-in-place orders; the 
legacy of historic redlining while trying to rebuild post-
disaster; and farmers already reeling from the economic fallout 
due to the pandemic losing their crop to severe storms. In my 
home state of New Jersey, where low-income families and small 
businesses have been particularly devastated, we are all hoping 
we don't have another Hurricane Sandy during this abnormally 
active Atlantic hurricane season.
    As climate change continues to cause more frequent and 
severe weather events, we must be ready to face multiple 
hazards at once. Whether it is several storms in a row, the 
everyday impacts of climate change on vulnerable populations, 
or an extreme weather event during a future pandemic, it is 
extremely important that we understand how these compound 
events interact with each other in order to better prepare for, 
communicate about, and respond to them.
    There remains much uncertainty about the most effective 
risk communication methods during a public health crisis or 
extreme weather event, especially for vulnerable communities. 
Understanding how people perceive risk and respond to warnings, 
especially when faced with multiple threats, is essential to 
informing emergency planning and response. The Federal 
government lacks robust funding for emergency management 
research. We will hear today about how improved coordination 
and additional interdisciplinary research and risk assessments 
are needed to bolster our emergency management capabilities.
    When a disaster occurs, being able to collect data, 
particularly on social and behavioral responses, in a timely 
manner is crucial to understanding immediate impacts to 
communities. The National Science Foundation's RAPID funding 
mechanism provides funding for proposals with a severe urgency, 
including research on natural disasters or similar 
unanticipated events. This serves as a great model for other 
agencies to support research related to environmental and 
public health crises that require a rapid funding mechanism.
    As we enter an age where the impacts of disasters will 
continue to be exacerbated by stressors such as climate change 
and social injustice, it is imperative that Congress works to 
improve our country's response to these disasters. Investing in 
interdisciplinary and rapid funding mechanisms for research 
into these topics, especially as we expect to see more 
compounding crises, will be vital to our success in mitigating 
the impacts of these disasters. I look forward to today's 
discussion with our witnesses to identify how this Committee 
can help address some of these critical research gaps. Thank 
you.

     Chairwoman Sherrill. And I think somebody's microphone is 
on, if you could make sure you're on mute when not speaking. 
Thank you.
     At this time I would like to enter into the record a 
letter from the Union of Concerned Scientists (UCS) expressing 
support for this hearing and emphasizing the importance of 
discussing the intersection of systemic racism, the climate 
crisis, and the pandemic. UCS's recent research has found that 
communities will increasingly face multiple crises at once as 
climate change progresses and that bold action is needed to 
limit these future impacts, especially for low-income 
communities of color.
     We are honored to have the Full Committee Ranking Member 
Mr. Lucas with us today. The Chair now recognizes Ranking 
Member Lucas for an opening statement.
     Mr. Lucas. Thank you for holding today's hearing, 
Chairwoman Sherrill.
     Today is the last day of September, which means we're 3/4 
of the way through 2020. Today's hearing will focus on a number 
of factors which have combined to make this an especially 
difficult year for our country. Some of these challenges are 
new, and some have been ongoing. Unfortunately, extreme weather 
events are not new, although there's been a higher number of 
these events this year. We've seen an unusually active Atlantic 
hurricane season with 23 named storms to date and still two 
months to go. Communities along the Atlantic coast have been 
battered by strong winds, heavy rain, and severe flooding.
     One of the many images future generations might remember 
of this year were by pictures of communities across the West 
bathed in orange due to the prevalence of wildfire across many 
Western States. More than 7.5 million acres have burned, which 
is well above the rolling 10-year average of wildfire damage. 
Entire communities in States like California and Oregon have 
literally burned to the ground.
     Better forecasting and public warning of extreme weather 
events has long been a focus of this Committee, and I'm proud 
to have introduced ``The Weather Act of 2017'', which directed 
NOAA (National Oceanic and Atmospheric Administration) to 
address how we can better forecast the occurrences of extreme 
weather events and how we can help the public be better 
prepared in the occurrence of these events. We have made 
strides in these efforts, but we still have a long way to go.
     A global pandemic has made forecasting even more 
challenging. We've heard from NOAA about the steps they've 
taken in order to ensure the continuality of operations to help 
warn Americans of impending extreme weather events. 
Unfortunately, a pandemic does not stop hurricanes, tornadoes, 
and flash floods. I think I speak for all of my colleagues here 
when I say how much we appreciate our forecasters for 
continuing this valuable work under challenging circumstances.
     The Committee has heard from Federal agencies and research 
universities about the impact of COVID-19 on our country's 
research and development efforts. The message was clear: Our 
success depends on science. We must continue to move forward on 
scientific innovation and support our research enterprise.
     I thank our witnesses for being here today. I look forward 
to hearing from our witnesses about what lessons we can learn 
from this year and how we can utilize our Federal research and 
development efforts to prepare for future events.
     Thank you and I yield back, Madam Chair.
     [The prepared statement of Mr. Lucas follows:]

    Thank you for holding today's hearing, Chairwoman 
Sherrill.Today is the last day of September, which means we are 
three quarters of the way through 2020. Today's hearing will 
focus on a number of factors which have combined to make this 
an especially difficult year for our country. Some of these 
challenges are new, and some have been ongoing.
    Unfortunately, extreme weather events are not new, although 
there have been a higher number of these events this year. We 
have seen an unusually active Atlantic hurricane season, with 
23 named storms to date, and still two months to go. 
Communities along the Gulf Coast have been battered by strong 
winds, heavy rain, and severe flooding.
    One of the many images future generations might remember of 
this year were pictures of communities across the west bathed 
in orange due to the prevalence of wildfire across many western 
states. More than 7.5 million acres of land have burned which 
is well above the rolling 10-year average of wildfire damage. 
Entire communities in states like California and Oregon have 
literally burned to the ground.
    Better forecasting and public warning of extreme weather 
events has long been a focus of this committee. I am proud to 
have introduced the Weather Act of 2017, which directed NOAA to 
address how we can better forecast the occurrence of extreme 
weather events and how we can help the public be better 
prepared in the occurrence of these events. We have made 
strides in these efforts, but we still have a long way to go.
    A global pandemic has made forecasting even more 
challenging. We have heard from NOAA about the steps they have 
taken in order to ensure the continuity of operations to help 
warn Americans of pending extreme weather events. 
Unfortunately, a pandemic does not stop hurricanes, tornadoes, 
and flash floods. I think I speak for all my colleagues here 
when I say how much we appreciate our forecasters for 
continuing this valuable work under challenging circumstances.
    The committee has heard from federal agencies and research 
universities about the impacts of COVID-19 on our country's 
research and development efforts.The message was clear: our 
success depends on science. We must continue to move forward on 
scientific innovation and support our research enterprise.
    I thank our witnesses for being here today. I look forward 
to hearing from our witnesses about what lessons we can learn 
from this year, and how we can utilize our federal research and 
development efforts to prepare for future events.
    Thank you and I yield back.

     Chairwoman Sherrill. Thank you so much. We are also 
honored to have the Full Committee Chairwoman, Ms. Johnson, 
with us today. The Chair now recognizes the Chairwoman for an 
opening statement.
     Chairwoman Johnson. Thank you very much, Chairwoman 
Sherrill, for holding this important hearing today. And good 
morning and thanks to all of our witnesses for being here 
today.
     We are in an unprecedented moment in our Nation. We have 
previously discussed the intersection of COVID-19 pandemic and 
extreme heat on environmental justice communities. These last 
few months have laid bare how these communities are 
disproportionately impacted by the COVID-19 pandemic due to 
decades of social injustice. These same communities are often 
disproportionately impacted by extreme weather events that are 
exacerbated by climate change.
     While we are working diligently across the globe to bring 
this pandemic under control, we cannot forget that we're just 
starting to address the impacts of climate change on our daily 
lives. These impacts are undeniable, and the increasing 
evidence of extreme weather events is a very visible example. 
In 2020 alone we've seen unsurvivable storm surges due to 
hurricanes in the Gulf Coast, the devastation of Iowa's corn 
crop due to the Midwest derecho, and the largest wildfire in 
California's history.
     As communities across the country grapple with these 
intersecting crises, it is clear that these crises are 
impacting not only our citizens' physical well-being, but also 
our mental health. The ongoing stress and trauma due to the 
pandemic and for some communities outweighs the weather.
     As the former Chief Psychiatric Nurse at the veterans' 
hospital, I've seen firsthand how trauma can affect mental 
health. The types of compounding crises we are currently seeing 
will have both short-term and long-term effects on our 
communities. It is important that we work to collect the data 
and conduct the research that is necessary to understand the 
impacts of this trauma.
     I look forward to today's discussion with this panel of 
expert witnesses to better understand what research is needed 
for us to improve our preparation for, communications of, and 
response to compounding disasters.
     Thank you, and I yield back.
     [The prepared statement of Chairwoman Johnson follows:]

    Thank you, Chairwoman Sherrill, for holding this important 
hearing today.Good morning and thanks to all our witnesses for 
being here. We are in an unprecedented moment in our nation. We 
have previously discussed the intersection of the COVID-19 
pandemic and extreme heat on environmental justice communities.
    These last few months have laid bare how these communities 
are disproportionately impacted by the COVID-19 pandemic due to 
decades of social injustice. These same communities are often 
disproportionately impacted by extreme weather events that are 
exacerbated by climate change.
    While we are working diligently across the globe to bring 
this pandemic under control, we cannot forget that we are just 
starting to address the impacts of climate change on our daily 
lives. These impacts are undeniable, and the increasing 
incidence of extreme weather events is a very visible example.
    In 2020 alone we have seen unsurvivable storm surges due to 
hurricanes in the Gulf Coast, the devastation of Iowa's corn 
crop due to the Midwest derecho, and the largest wildfire in 
California's history.
    As communities across the country grapple with these 
intersecting crises, it is clear that these crises are 
impacting not only our citizens' physical well-being, but also 
their mental health.
    The ongoing stress and trauma due to the pandemic, and for 
some communities, evacuations due to extreme weather, can take 
a severe toll on their mental health.
    As the former Chief Psychiatric nurse at the Dallas 
Veterans Affairs Hospital, I have seen first-hand how trauma 
can affect mental health. The types of compounding crises we 
are currently seeing will have both short-term and long-term 
effects on our communities. It is important that we work to 
collect the data and conduct the research that is necessary to 
understand the impacts of this trauma.
    I look forward to today's discussion with this panel of 
expert witnesses to better understand what research is needed 
for us to improve our preparation for, communication of, and 
response to compounding disasters.
    Thank you, I yield back.

     Chairwoman Sherrill. Thank you, Madam Chairwoman.
     If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
     And at this time I would like to introduce our witnesses. 
Dr. Roxane Cohen Silver is a Professor of Psychological 
Science, Medicine, and Public Health at the University of 
California, Irvine. Her work focuses on traumatic life events 
and deals with personal losses, as well as collective traumas. 
The themes of her research are the effects of collective 
traumas, community resilience, and the role news and social 
media plays in transmitting the stress of disaster. Dr. Silver 
has researched the mental health impacts of the September 11 
terrorist attacks, the 2013 Boston Marathon bombings, 
Hurricanes Harvey, Irma, and Michael, and the Ebola public 
health crisis. Most recently, she has completed a national 
study of the effects of the coronavirus pandemic in the United 
States.
     Unfortunately, our second witness, Ms. Colette Pichon 
Battle, who is the Founder and Executive Director of the Gulf 
Coast Center for Law and Policy, is no longer able to testify 
today.
     Our final witness today is Dr. Samantha Montano. She is an 
Assistant Professor of Emergency Management at Massachusetts 
Maritime Academy and a self-described disasterologist. Her 
research analyzes different aspects of emergency management 
such as nonprofits, volunteerism, informal aid efforts in 
disaster, and the intersections of disasters with climate 
change, gender, and media. She began her career in disaster 
management after working for nonprofits on recovery efforts 
following Hurricane Katrina and the BP oil disaster.
     Our witnesses will each have 5 minutes for oral testimony. 
Your written testimony will be included in the record for the 
hearing. When you all have completed your spoken testimony, we 
will begin with questions. Each Member will have 5 minutes to 
question the panel. And we will start with Dr. Silver. Dr. 
Silver?

              TESTIMONY OF DR. ROXANE COHEN SILVER,

         PROFESSOR OF PSYCHOLOGICAL SCIENCE, MEDICINE,

      AND PUBLIC HEALTH, UNIVERSITY OF CALIFORNIA, IRVINE

     Dr. Silver. Yes, good morning, Chairwoman Sherrill and 
Members of the Subcommittee. Thank you for the invitation to 
speak with you today on coping with the trauma of 2020, a year 
of grave stress, loss, and disruption for the United States.
     I'm a Professor of Psychological Science, Public Health, 
and Medicine at the University of California, Irvine. And for 
over 3 decades I have studied the psychological impact of 
community disasters such as firestorms, mass violence, 
hurricanes, and infectious disease outbreaks. Almost all of my 
research over these years has been funded by the National 
Science Foundation.
     The year 2020 has been marked by unprecedented compounding 
traumas. As I will briefly discuss but have described in more 
detail in a paper that will be published next week in the 
journal Nature Human Behaviour, these catastrophes have 
cascaded one to the next.
     Next slide, please.
     And individuals across the United States have concurrently 
grappled with direct exposure to these events and watched them 
unfold in real time in the media. Research I've conducted over 
the past several decades strongly suggests that the mental 
health consequences of direct and media-based exposure to these 
compounding stressors may be profound.
     This year has taxed our capacity to cope, with the most 
vulnerable groups in our society at greatest risk. Policymakers 
must act to ease the burden of trauma to protect the public's 
mental as well as physical health.
     Last week took us past a sad milestone. Over 200,000 
people have now died of COVID-19 in the United States. The 
severe restrictions implemented to limit the spread of 
infection left thousands of businesses closed and millions of 
Americans unemployed. These crises hit low socioeconomic status 
and minority communities especially hard, highlighting economic 
and racial inequalities in healthcare in our country.
     With the pandemic and economic recession as a backdrop, 
the absence of distraction and easy access to graphic videos of 
the deaths of unarmed Black Americans led to protests and 
ongoing social unrest. And over the past few months the United 
States has faced extreme weather events, including devastating 
hurricanes and disastrous wildfires that require evacuations 
that have been made more complicated during a pandemic that 
requires physical distancing.
     Together, the combination of medical, economic, racial, 
and climate-based catastrophes highlights the need for serious 
attention to be paid by both public health officials and 
policymakers of the implications of cumulative trauma exposure.
     In March--next slide, please--my colleagues and I 
published a commentary in which we used the research we have 
conducted on collective traumas over the past 2 decades to 
predict that widespread media exposure to a crisis like the 
COVID pandemic could amplify the distress people felt in 
response to this public health emergency. In fact, our past 
research suggested that repeated media exposure to COVID-19 
news could lead to increased anxiety.
     While we predicted negative effects of the media to the 
events of 2020 based on our earlier research, it was critical 
to conduct research on the pandemic specifically. However, the 
challenges of obtaining funding quickly in the aftermath of 
collective traumas often lead to a lack of early studies of 
large representative samples.
     Fortunately, because the National Science Foundation (NSF) 
offered many COVID-specific RAPID grants, which enabled 
research funding for high-quality science, my colleagues and I 
were able to conduct a methodologically rigorous study of a 
national sample of 6,500 adults in the United States that began 
March 18th. The first report from our study was published last 
week in the journal Science Advances.
     We started our project just as the pandemic unfolded 
beginning when there were 190 reported COVID-19 deaths in the 
United States to over 13,000 deaths less than 30 days later. We 
found that as the weeks went on and the cases across the United 
States grew, so did rates of acute stress and depressive 
symptoms.
     Will we survive the trauma of COVID-19 and the cascading 
tragedies that have followed? As I wrote in an editorial in 
Science in July, I believe that we will. This is not to 
minimize the seriousness of the tragedy in any way. We do not 
know how long the pandemic will last or how bad it will get. 
But my decades of research on trauma make clear that people are 
extremely resilient. Although the timing of the end of COVID-19 
remains unknown, I believe that most people will get to the 
other side of this pandemic recognizing strengths and coping 
skills they did not realize they had. Rigorous research by 
psychological scientists can offer understanding of human 
behavior during crises to minimize future rates of infection 
and death.
     This concludes my testimony. Thank you.
     [The prepared statement of Dr. Silver follows:]
     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
        
     Chairwoman Sherrill. Thank you so much.
     And next, we will hear from Dr. Montano.

               TESTIMONY OF DR. SAMANTHA MONTANO,

  ASSISTANT PROFESSOR OF EMERGENCY MANAGEMENT, MASSACHUSETTS 
                        MARITIME ACADEMY

     Dr. Montano. Thank you, Chairwoman Sherrill and Members of 
the Subcommittee, for the opportunity today to testify on 
issues related to coping with compound crises.
     As the Chairwoman stated, I currently serve as an 
Assistant Professor of Emergency Management at Massachusetts 
Maritime Academy. I have a doctorate in emergency management 
from North Dakota State University and over a decade of 
emergency management experience in the field in research and in 
science communication.
     For several years, there has been mounting evidence that 
the various components of our emergency management system are 
not keeping up with our needs across the country. In 2016, some 
national disaster nonprofits began talking about volunteer and 
funding fatigue. In 2017, FEMA (Federal Emergency Management 
Agency) struggled to meet the needs across the country in the 
wake of Hurricanes Harvey, Irma, Maria, and the California 
wildfires. This year, when the pandemic began, every emergency 
management agency at all levels of government activated 
simultaneously for the first time in U.S. history. Given our 
reliance on mutual aid between jurisdictions during times of 
crisis, the pandemic revealed the interconnectedness of this 
system and reinforced concerns about its capacity to meet the 
Nation's growing needs.
     Research suggests that 2016, 2017, and 2020 are not 
outlier years. Rather, they represent just the beginning of 
what is to come as the consequences of the climate crisis began 
to manifest and collide with deferred infrastructure 
maintenance, social inequality, and decades of development 
decisions that have not accounted for hazard risk. Our system 
was not designed to manage a pandemic of this scope and scale, 
nor was it designed to manage the increasing number of disaster 
impacts across the country. And it's certainly not ready to 
meet the needs of the future.
     Our current approach to emergency management is especially 
insufficient for Black, indigenous, low-income, and other 
marginalized communities. Decades of policy decisions have 
funneled these groups into especially vulnerable areas. Not 
only are these communities more likely to live in more 
physically vulnerable places, but they are also less likely to 
have the resources to be able to engage in pre-disaster 
mitigation and preparedness activities that would minimize 
their risk. When a hazard does occur, these communities 
experience disproportionate impacts and are less likely to have 
their needs met by existing recovery programs.
     We need to urgently change our emergency management 
approach to one that is proactive, not reactive, one that 
centers environmental justice and quickly meets the actual 
needs of people before, during, and after disasters.
     Empirical research must drive these changes. Scholars in 
many disciplines produce research that is fundamental to our 
understanding of disasters and their effects, but there is a 
particularly important role for the discipline of emergency 
management, which studies how humans and their institutions 
create, interact, and cope with hazards, vulnerabilities, and 
associated events.
     Historically, research has not been well-integrated into 
emergency management policy and practice despite its undeniable 
value to both. We need not only to ensure that future policy is 
built on empirical research but also that there are sustain 
funding mechanisms in place to support emergency management 
research specifically.
     Currently, emergency management research is underfunded, 
which hinders our ability to inform emergency management 
practice and policy. Disasters do not happen in isolation from 
one another. We must address not only our Nation's readiness to 
manage a Hurricane Harvey, Maria, or a pandemic, but also our 
capacity to manage multiple threats at once because that is our 
reality.
     As I testify before you today, people are struggling 
through disaster and its aftermath. Gulf Coast residents have 
had to manage a barrage of hurricanes as West Coast residents 
have had to manage constant wildfires. Parts of the Southeast 
are rebuilding after spring tornadoes, while Midland County, 
Michigan, recovers after dam failures, and communities in Iowa 
pick up the pieces after a derecho. People in all parts of the 
country are engaged in long-term recovery efforts, especially 
Puerto Ricans, who, 3 years post-Maria, are still waiting for 
all the assistance promised by the Federal Government.
     In States, territories, and tribal lands all across the 
country, people are fighting against the repercussions of 
systemic racism and social injustice, all while a pandemic that 
has killed over 200,000 Americans persists unabated. These 
recent examples of trauma, loss of life, and destruction cannot 
be separated from each other, and emergency management is on 
the frontlines of addressing them all.
     Thank you for your attention to these important issues. I 
look forward to answering any questions you may have.
     [The prepared statement of Dr. Montano follows:]
     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
       
     Chairwoman Sherrill. Thank you so much.
     At this point we will begin our first round of questions. 
The Chair recognizes herself for 5 minutes.
     So just to begin with, Americans, I know, are no strangers 
to dealing with extreme weather events, but during the current 
COVID-19 pandemic, it's really caused us to rethink our 
traditional methods of responding to disasters. In my own 
district we recently had a hurricane come through, and with the 
power outages, there was a constituent who was in the street 
crying really, and the mayor came up to her and said, you know, 
what's happening? And she said her elderly parents were stuck 
in their home without power. We were facing some 90-degree 
temperature days, and she was afraid to bring them to her home 
because she has teenaged children and she was afraid they would 
give her 90-year-old parents coronavirus.
     There's also my in-laws who are in California right now 
facing the wildfires. I'm worried about their safety, and 
normally, I'd bring them over to stay with us in New Jersey, 
but like many families all over the country, you know, I don't 
think they want to get on an airplane, and I don't blame them. 
So these decisions aren't made lightly, and Americans are 
increasingly forced to decide which crisis is the one they have 
to respond to.
     So Dr. Silver and Dr. Montano, for families and first 
responders, how are we working to understand the new set of 
challenges that come with responding to the compounding crises 
of extreme weather during the pandemic?
     Dr. Montano. Thank you for that question. You know, what 
you described is definitely an experience that I think many 
families across the country right now are trying to manage. You 
know, everything we do in emergency management requires people 
to be in close proximity to one another, and that has meant 
that every facet of emergency management has been affected by 
the pandemic.
     As you noted, response efforts have had to change as 
communities are rethinking how to utilize, you know, virtual 
emergency management operation centers, how to run shelters 
without starting an outbreak, and certainly we see that 
families are trying to make the best decisions they can with 
the resources that they have to prioritize those risks.
     There are a number of researchers across the country that 
are working on studies looking at how these decisions are being 
made and what it potentially means for the future. There is a 
program called CONVERGE COVID-19 Working Groups that was 
supported by NSF through the Hazard Center at University of 
Colorado Boulder, and there are a number of publicly available 
research agendas that researchers have that are kind of in the 
process of seeking funding to help answer those questions.
     Chairwoman Sherrill. Thank you. And Dr. Silver, did you 
have anything to add?
     Dr. Silver. Just that while it's extremely important that 
we use science to help us make decisions, as you can imagine, 
we really have not been in this kind of situation before, and 
therefore, we are really stuck with not having adequate science 
to help guide us. As you correctly identified, these are 
competing mitigation strategies, and one needs to leave the 
area in which one might be threatened, but in doing so, then 
one typically goes into a shelter that packs people in. So we 
really have not been in this situation. We are not adequately 
prepared. And our research now hopefully will help us when the 
next set of compounding crises hits us. And most scientists do 
say that we are in for this kind of a season of compounding 
crises in the future. This is the first time for our country 
right now, but I think that it's extremely important that we 
have research that will help guide us in the future as we cope 
and that we will be much better prepared in the future. At 
least that's my hope.
     Chairwoman Sherrill. Well, thank you very much. And my 
time is about to expire, so I will now recognize the Ranking 
Member of the Full Committee Mr. Lucas for 5 minutes.
     Mr. Lucas. Thank you, Madam Chairman. And Dr. Montano, I 
turn to you first.
     Fundamentally, why do people still ignore evacuation 
mandates? In Oklahoma we have the National Weather Service 
Storm Prediction Center which is conducting research to try to 
increase the tornado prediction times, but even if we were to 
increase the warning to 45 minutes to an hour timeframe, what 
reasons do people have for ignoring it and staying in their 
vulnerable homes?
     Dr. Montano. Thank you for that question. We have a fair 
amount of research on this actually across a number of 
disciplines that can contribute to our understanding of how 
people are making protective action decisions in the midst of a 
response.
     Generally, we've pulled here from three disciplinary 
previews, and so we have psychologists that are contributing an 
understanding of how people are perceiving risk. We have 
communication researchers that are looking at the actual ways 
that people are receiving alerts through a phone or an outdoor 
siren, and then we have sociologists who are helping to 
describe the human behavioral aspects of this.
     One thing that we do in emergency management is pull from 
across all of those different disciplines to understand how the 
findings of their research can help create a cohesive model for 
understanding those warning decisions. And what we see when we 
do that is that, you know, there are issues with people 
actually receiving warnings in terms of actually getting that 
alert on their phone or actually understanding how to interpret 
the message that has been given. We see that there may be 
educational issues, so they might not understand the risk and 
may not understand the actual actions that need to be taken.
     And then kind of a third category is whether or not they 
actually have the resources to take action. So if you tell 
someone to evacuate for a hurricane but they don't have their 
own transportation or are unaware of public transportation 
opportunities, then they may not take that action. So we really 
need to be looking across those different disciplines and 
finding ways to make sure all of that is incorporated into our 
approach.
     Mr. Lucas. And the research you have access to, is this a 
problem, an issue that's in society as a whole or a part is 
becoming more complicated or less complicated? You know, 
there's a tendency out there right now to be distrustful of the 
government, of the internet, of everybody and everything, but a 
lot of these efforts represent their own best interest. We're 
really all together trying to help people. Do you see a change 
in the patterns of response by people?
     Dr. Montano. Certainly, trust is a major factor here as 
well. I'm not aware off the top of my head of recent research 
from this year that has addressed that change. I think that it 
is something that several researchers are looking into, though. 
I'm not sure that those findings are available yet.
     Mr. Lucas. Continue with you, Doctor, you mentioned a 
common recommendation to restore FEMA to an independent 
Cabinet-level agency, and I of course understand your area of 
expertise is emergency management, but what role does weather 
prediction--and you can tell coming from the east side of the 
Rockies and the southern plains, I'm very sensitive about 
weather, too--what role does weather prediction have in our 
responses to emergencies? And do you believe an independent 
Cabinet-level NOAA would enable a more proactive rather than a 
reactive approach as we've been talking about here today?
     Dr. Montano. Potentially. My focus is really on FEMA more 
than NOAA, so an independent Cabinet-level FEMA is definitely 
something that has been suggested by disaster and emergency 
management experts for a number of years. And certainly to the 
extent that NOAA is impacted by politics, we want to work 
against that as certainly the research, you know, brings up 
that issue of trust and people actually listening to those 
warnings.
     Mr. Lucas. One last question, and then I'll yield back the 
balance of my time. Along the theme of what we're talking about 
now, we have a variety of challenges in the country and not 
just new challenges. I represent a part of the world that was 
the abyss of the Great Depression, the dustbowl of the 1930's, 
which represented policy mistakes that went all the way back to 
the Homestead Act of 1862, a well-intended and it worked well 
in the Midwest, but different soil, different climate, 
different circumstances in my part of the world made for a 
challenge.
     I guess my question to you is thinking about the issues, 
expand for a moment on the kind of research that's needed to 
ensure effective and efficient approaches. Is it sociology, is 
it environmental, just expand for a moment because we are the 
research Committee of the U.S. House.
     Chairwoman Sherrill. And if you could keep your response 
brief, the gentleman is out of time. Thank you.
     Dr. Montano. Yes, definitely. Well, we need all 
disciplines to be involved in doing this research. 
Historically, there has been a greater emphasis on the physical 
sciences, Earth sciences. We've more recently seen more of an 
emphasis on social sciences, and that does need to continue. 
And then as I would reiterate is that emergency management 
research specifically does need to have that investment.
     Mr. Lucas. Thank you, Madam Chair. I yield back.
     Chairwoman Sherrill. Thank you. And I now recognize the 
Chairwoman of the Full Committee for 5 minutes.
     Chairwoman Johnson. Thank you very much. I will start with 
Dr. Silver.
     What should our research and data collection priorities be 
if we are to understand and address the impacts of the trauma 
that I spoke about in my opening statement? And who should take 
the lead on that data collection and research?
     Dr. Silver. Thank you very much for that question. As I 
mentioned, the National Science Foundation enables a mechanism 
unique to the Federal agencies to allow researchers to propose 
very quickly projects that are then funded through the RAPID 
mechanism. And across my career I have been fortunate to 
receive between 8 and 10 of those grants that enables me to 
start studying people at the very beginning of the crisis. And 
I would very much encourage any future research to be what we 
call longitudinal, that is, start in the immediate aftermath of 
a disaster and follow people over time.
     What's even better, however--and this is research that I 
have been trying to conduct for many years--is to identify 
communities that are at risk of a disaster before it happens, 
develop research teams, interdisciplinary research teams that 
could be activated. We know that certain communities are going 
to be at risk for floods every year. We know that certain 
communities are going to be at risk for firestorms every year, 
and similarly for hurricanes. And what we can do is identify 
communities, enlist people to be in a research project before 
the disaster hits. We can understand what kind of decisions 
they are making prior to the disaster, what media they are 
listening to, whether or not they're trusting the communicator, 
and then once the disaster hits, we can follow people over 
time. And that is the best kind of research that we can do on 
these crises.
     One other very, very important message is that we must 
conduct methodologically rigorous research that is using the 
best samples, using what the scientists--the scientists to help 
us identify the best samples so that we can make 
recommendations based on truly representative samples of people 
across the country that can help us in the future.
     Chairwoman Johnson. Thank you very much. Any other 
witnesses want to add to that?
     OK. Environmental and health research within the Federal 
Government is typically siloed with NIH usually conducting 
health research and science agencies such as NSF, DOE 
(Department of Energy), NOAA, and EPA (Environmental Protection 
Agency) conducting environmental and social science research. 
When it comes to diseases, climate change, and extreme weather, 
there is much overlap between public and environmental health, 
especially in the social science domain. Thus, 
interdisciplinary research and funding mechanisms are needed.
     So I'd like each of the witnesses to comment. In your 
work, are there sufficient funding mechanisms for research in 
this interdisciplinary space and how Federal agencies breakdown 
disciplinary silos to obtain a stronger understanding of social 
and institutional dynamics following extreme weather events?
     Dr. Silver. I'd like to take that question first if you 
don't mind, and I'm going to use the example of the September 
11 terrorist attacks. Unfortunately, because there were very 
few mechanisms to get funding shortly after the September 11 
attacks, my colleagues and I remarkably were the only team that 
obtained funding from the National Science Foundation within 
days of the 9/11 attacks and were able to follow several 
thousand people for several years, many years in which we could 
look at the impact of the 9/11 attacks on both physical and 
mental health.
     The challenge has been getting the funding out quickly, 
and at this point, almost none--in fact, perhaps only one 
piece--research project that I've conducted in over 40 years 
has been funded by the NIH (National Institutes of Health) 
because there has not been a mechanism to get the funding out 
to me quick enough to be able to do my research.
     The National Science Foundation in contrast has 
specifically developed a mechanism. It used to be called 
something different than it is now, which is now called RAPID 
and which was implemented very quickly. Their mechanism was 
implemented very quickly after COVID. Over 900 proposals were 
funded via the RAPID mechanism through the National Science 
Foundation. But the NIH did not have that flexibility, that 
ability to speedily get funding out to researchers, and this is 
a very, very serious problem.
     Chairwoman Sherrill. Thank you. The gentlewoman's time is 
expired. Thank you, Madam Chairwoman.
     I now recognize Representative Babin for 5 minutes.
     Mr. Babin. OK. Thank you. Thank you very much, Madam 
Chair. I want to thank you and as well as our witnesses today.
     I have the great honor of representing southeast Texas, 
which unfortunately has been the center of devastating floods 
that seem to come annually now. Three years ago, Hurricane 
Harvey dumped the single largest amount of rainfall in the 
recorded history of our country in my district. Since then, we 
have had several hurricanes and tropical storms that leave much 
of southeast Texas under water. This sort of reoccurring 
devastation not only upends the lives of thousands but has 
enormous implications on our Federal budget. These disasters 
every year leave the taxpayers responsible for the colossal 
bills that are needed for our recovery. Investing money in 
mitigation efforts is an incredibly wise investment and will 
save billions of dollars every year in damages.
     So my question to Dr. Silver and Dr. Montano, since 
Hurricane Harvey, there has been an effort to promote 
resilience to help communities be better prepared for future 
extreme weather events. So I want to ask both of you, to what 
degree should the Federal Government be involved, and how much 
responsibility should the States have in these projects? And 
what is needed to rebuild even faster than what we're seeing? 
Thank you.
     Dr. Montano. Thank you. I will take that question first. I 
have experience doing research in southeast Texas, so I'm well 
familiar with the particular challenges of those communities. 
What we're seeing in multiple places around the country but 
specifically southeast Texas is that the next disaster is 
happening before people can get through recovery, and some 
folks are really stuck in this cycle of recovery where they 
can't rebuild before the next disaster comes.
     When we look at our approach to recovery in the United 
States, [inaudible] limited intervention model. The government 
is intentionally limited in their involvement. And folks are 
reliant on their own resources, on insurance, and also the 
nonprofit sector.
     As I mentioned in my opening testimony, there are signs 
from the nonprofit sector that they are feeling overwhelmed and 
are unable to meet all of the needs across the country. We--and 
we see that people don't have----
     Chairwoman Sherrill. [inaudible]. I'm sorry. Just one 
moment. We're getting just a little bit of feedback, so if 
you're not speaking, can you mute your mic? Thanks.
     Dr. Montano. So we are seeing that folks don't necessarily 
have their own resources to be able to go through the recovery 
process, which is suggesting that there is perhaps a larger 
role for government here. And when we look at those recovery 
programs through FEMA, through HUD (Department of Housing and 
Urban Development), that operate at that--for the purpose of 
rebuilding individual homes, we see that people very often tend 
to navigate those programs. They can be very complex. They take 
a long time. There are issues with the speed of dealing with 
insurance companies in the National Flood Insurance Program.
     So I would say overarchingly to create a more efficient 
recovery process, we need to be doing more to streamline those 
individual and household recovery programs, but also we need to 
make sure that when people are going through recovery, they are 
integrating mitigation efforts into that. There needs to be, 
you know, a speedier process for buyout programs, a speedier 
grant process for lifting homes up, and of course, ideally, we 
would be doing those mitigation efforts before the disaster 
ever even happens. But to the extent that we can incorporate 
that into recovery, certainly research supports that that is 
the best approach.
     Dr. Silver. I'd just like to take 1 minute to talk about 
the important role of trust, which has been raised previously. 
Most individuals trust their local governments or their local 
policymakers, and I think that that--people are looking to make 
decisions about whether or not they're going to [inaudible] 
emergency management teams.
     So I think it's very important whatever might happen at 
the Federal level, we need to make sure that local emergency 
management personnel are getting the best recommendations, are 
getting the best information, they're receiving it quickly. And 
I know that, for example, during the pandemic, this is a big 
challenge of getting the correct information out to the local 
governments so that they can then deliver that content to their 
residents because, ultimately, it's about trust. And if people 
don't trust the communications and they don't trust the 
communicator, it doesn't matter really what science tells us.
     Mr. Babin. Absolutely. Thank you all both very much. And 
with that I will yield back, Madam Chair.
     Chairwoman Sherrill. Mr. Babin yields back. And now I 
recognize Representative Bonamici for 5 minutes.
     Ms. Bonamici. Thank you so much, Chair Sherrill and 
Ranking Member Marshall, and thank you to our witnesses.
     I don't know if Mr. Lucas is still in the hearing, but I 
do recall having many conversations about the value of social 
science research when we worked together on the weather 
Research and Forecasting Innovation Act. It's so critical.
     So I represent a district in Oregon. My home State has 
seen wildfires at unprecedented rates this year. Nearly a 
million acres have already burned in the past month as a result 
of historic winds and dry fuel conditions. For comparison, on 
average, approximately 500,000 acres burn each year during an 
entire fire season over the last 10 years. And, unfortunately, 
we've had air quality that has surpassed hazardous levels. That 
further endangers the health and livelihoods of those already 
at risk from respiratory issues from coronavirus. It was also 
incredibly stressful. A lot of people were relieving their 
stress during the pandemic with a walk through the neighborhood 
or the park, and they could not go out.
     Many Oregonians have been placed under evacuation orders, 
hundreds have lost homes. We're very grateful to the State and 
Federal agencies that have made lifesaving measures a priority, 
but the road to recovery is going to be long, and it's going to 
be challenging. Many experts are predicting significant 
flooding and landslides this winter as precipitation increases, 
the soil conditions remain unstable.
     The compounding crises were not unexpected. In fact, in 
April I joined with my colleague on this Committee Congressman 
Jerry McNerney from California in calling on FEMA to develop 
disaster preparation and recovery plans that reflect the 
challenges of the ongoing pandemic during natural disasters. 
And I've also joined my colleagues in calling on the White 
House Coronavirus Task Force to take proactive steps to protect 
firefighters from contracting COVID-19.
     So I wanted to ask, Dr. Montano, in your testimony you 
noted that disasters do not happen in isolation from one 
another, and we're certainly seeing that now. Which emergency 
management research gaps are the most important to address to 
improve preparedness for these compounding crises within the 
next decade?
     Dr. Montano. Well, there are a lot of research gaps in 
emergency management. You know, when we talk about the research 
that needs to be done, there is some really basic research that 
we have not had the opportunity yet to do. As a discipline, 
emergency management is relatively young. There are relatively 
few emergency management researchers across the country, and so 
we have significant gaps.
     In terms of prioritizing those gaps, certainly looking at 
what we can do to more effectively prepare. Historically, we've 
had a relatively narrow idea of what preparedness is. We're 
focused on individual go-bags, individual plans, but really 
when we think about disasters, they require this community 
response, which suggests that there's much more that we could 
be doing in terms of community preparedness, so really studying 
what the most effective and most efficient changes that we can 
make to our approach to preparedness is something that is 
critical for us in emergency management research.
     Ms. Bonamici. And I don't want to cut you off but I want 
to get another question in, and I am going to ask to follow up 
on the record with some specific recommendations about that, 
the research gaps.
     So we know that disasters often exacerbate inequities for 
our frontline and vulnerable communities, especially low-income 
communities and communities of color. We have seen that with 
the pandemic. So I recently joined my colleagues on the Select 
Committee on the Climate Crisis in releasing a climate action 
plan that supports community-led, voluntary just and planned 
transitions from the riskiest flood- and wildfire-prone areas. 
Our plan will help provide communities with information on 
future climate risk, technical assistance to communities to 
help them plan ahead, and also funding to help those who are 
ready to move to safer ground.
     So, Dr. Montano, what steps can Congress take now to 
support proactive rather than reactive emergency management? 
And how can those efforts best support our environmental 
justice communities?
     Dr. Montano. You know, one issue that we have across the 
country is that many communities only have a part-time 
emergency manager who kind of doubles as the fire chief. Some 
communities even have a volunteer emergency manager. So we 
really need to invest in the emergency management system at 
that local and State level. And I think that there is 
potentially a place for Federal funding to help fulfill those 
positions, which would really grow that capacity at that local 
level, which would also provide much more of an opportunity for 
those marginalized groups to be involved in those planning 
efforts.
     Ms. Bonamici. And that would be a very good investment. I 
think about Seaside, Oregon, and the district I represent. It 
took them years to get the resources to move their schools 
where their young children are learning out of the tsunami 
inundation zone, again, a good investment to make sure these 
communities can plan.
     And I see my time is expired. I yield back. Thank you, 
Madam Chair.
     Chairwoman Sherrill. Thank you, Representative Bonamici.
     Next, I recognize Representative Casten for 5 minutes.
     Mr. Casten. Thank you, Madam Chair, and thank you to our 
speakers.
     Dr. Montano, I want to start with a--sort of a selfishly 
personal question if you'll allow me. I'm new to this line of 
work. I spent 16 years as a CEO (chief executive officer). And 
one of the--sort of the things that they beat into you whether 
in, you know, in business school or then when you get PR 
(public relations) consultants, as the leader of an 
organization in a crisis, No. 1, you have to be enormously 
transparent about what you know and what you don't know; No. 2, 
that as you develop plans to deal with the crisis to be very 
clear about how you develop that plan because as information is 
always changing and people are nervous, it's important for them 
to understand your thought process as much as what the 
information is so that when new information comes in and the 
plan changes, they don't get nervous. And then last, just to 
massively overcommunicate because otherwise the rumor mill 
takes over.
     My sort of selfish question is, given your expertise, 
would you amend that plan for those of us in public service, or 
is that still basically the right way for us to be dealing with 
these sorts of crises as we speak to our constituents and 
beyond?
     Dr. Montano. Yes, absolutely. The research certainly 
suggests what you explained, that, you know, trust, clear 
communication, excessive transparency is a good approach in the 
midst of a response to a disaster. Sometimes we see politicians 
hesitate to be forthright with what is happening during a 
crisis because they are concerned with creating some kind of 
panic among the public. In fact, we have research dating back 
almost 7 decades that supports that people don't panic during 
disasters, that actually that information is useful for them 
and leads to them being able to be an active participant in 
that response and make those really effective decisions for 
themselves and their families. So certainly, yes, transparency 
with communication is the right approach.
     Mr. Casten. So my second question and--is that the--it 
strikes me that politicians are generally good at doing that 
for crises that are right on top of us. When the hurricane is 
bearing down on the coast and you've got to tell people to put 
up sandbags or get out of the way, we do a good job.
     It strikes me that we have done a completely horrible job 
of dealing with that with COVID. That's a slow-moving crisis, 
which is only--which I guess is--only looks good relative to 
climate change that's somewhat slower moving. And too many 
folks in our line of work are just outwardly lying. Should we 
adopt a different approach for slower-moving crises?
     Dr. Montano. I'm not familiar with any research that would 
suggest any kind of different approach. I think, again, being 
honest with the public about what the risks are is the best 
approach. Again, it's about empowering the public to be active 
participants in that response. And when you tell people that 
everything is fine and they look out the window and see that 
the sky is not the normal color, you know, there is going to be 
extended trust issues that extend past just that disaster.
     Mr. Casten. Well, so I guess my last question--and I I 
don't know if this is best for you or Dr. Silver--but you've 
confirmed my own preconceived biases, which is helpful. But if 
we're not doing a good job of communicating, if we're telling 
people that you can ignore climate change because it's not real 
until it's a hurricane bearing down on your house, if we're 
telling people that COVID is going to magically go away until 
your loved ones in nursing homes are dying and you can't visit 
them, what kind of stresses does that--in other words, what are 
the consequences of us failing to follow these strategies and 
how people behave?
     And, you know, Dr. Silver, your research on how that 
stresses people out, what does that do to people when we--
instead of empowering them to lead, we pile that stress on top 
of them?
     Dr. Silver. Well, one of the things that we're seeing now 
with COVID-19 in particular is conflicting information. It's--
we are hearing and individuals are hearing one message from 
perhaps one set of leaders, another message from another set of 
leaders. There's a lot of controversy being communicated via 
some public health individuals that may be politically driven. 
This becomes a real challenge. And we found in our research 
that we just published last week in Science Advances that when 
people hear a lot of conflicting information, that does 
exacerbate stress. That does increase the likelihood that 
people are going to exhibit depressive symptoms. So it's not 
just hearing message A. It's hearing message A and message 
negative A. These are the big challenges for us because it's 
very difficult to know who to believe because we see, 
unfortunately, people are choosing different sources, and that 
leads [inaudible] and the challenges that we--that are 
exacerbated right now.
     Mr. Casten. Thank you. I'm out of time and I yield back, 
but here's hoping we can all take some of your wisdom and take 
it forward as we lead our own constituencies. Thank you. I 
yield back.
     Chairwoman Sherrill. Thank you, Representative Casten.
     I now recognize Representative Beyer for 5 minutes.
     Mr. Beyer. Madam Chair, thank you very much. This has been 
really fascinating to listen to. And if you forgive me, I just 
want to emphasize the link between income and wealth inequality 
and the vulnerability to extreme weather events, which I think 
you point out again. I just think the worst Virginia disaster 
in our lives was Hurricane Camille in 1969. We lost 153 people 
in a couple of hours. It was mountain slides and flash floods, 
21 members of the Huffman family. And it was all relatively 
poor or low-income people living in very fragile homes that 
were washed away.
     Every time I see a tornado on the TV, the people killed 
seem to be the ones in mobile home parks. When floods kill 
people, they tend to be living in flood zones down along the 
river. Even earthquakes, it's the lower home values. You know, 
we had--was it 2009 we had Haiti that killed all those people 
as their homes just collapsed? A few years later we had a six-
point-something Richter scale in Virginia that didn't injure a 
single person because of the difference in construction.
     So it's our commitment to economic growth for everyone, 
overcoming the systemic racism that's shown up in 10 and 12 
time multiples for the net worth between an average White 
family and a Black family or a White family and a Latinx 
family, that economic justice and environmental justice are 
basically the same thing.
     Dr. Silver, in your study on the Ebola pandemic in 2014 
you talk--you noted that people who consumed more media about 
the crisis were more afraid of contracting Ebola even though 
the risk is relatively low. How do we interpret that in the 
context of COVID-19 when we want people to know that social 
distancing, mask wearing, don't go inside a restaurant, all 
these things are so important in balancing that with the fear 
of contracting the virus?
     Dr. Silver. So you raise an extremely important point, 
which is that the media is a double-edged sword. It helps us 
communicate the protective actions that people can take. It's a 
very important way to get information out. But at the same time 
we know that many media outlets want to keep viewers--keep 
people watching, and the stories that they are telling are all 
bad news all the time. So what we're talking about in terms of 
media exposure is media about bad--you know, bad news, sad 
stories, graphic images, which we haven't seen, fortunately, 
with COVID.
     But we did find in our paper that just came out that in 
fact the more media people were watching in--or engaged with 
either in traditional media or social media in the days after 
COVID began really hitting the news waves in the United States, 
the more media people were watching, the more stress they were 
reporting, the more depressive symptoms they were reporting. So 
if we were only delivering content that was providing 
information about health protective behaviors, that would be 
one thing. But, as you know, the media is filled with all sorts 
of other conflicting messages and controversies, and so it's 
not as simple as just saying we understand that the media can 
be good. It's a double-edged sword.
     Mr. Beyer. Dr. Montano, let me pile on with that, too, 
because, as Dr. Silver had mentioned, we've had tripling of 
people diagnosed with depression, anxiety, a frightening 
statistic that a quarter of young people 18 to 29 have had 
suicide ideation since the beginning of this. How do we better 
communicate the need to get out of dodge before the volcano 
blows or before the hurricane hits or to take protective 
actions and not push people into these depressive states?
     Dr. Montano. You know, one thing that I think is really 
important here is making sure people have the needed resources 
to actually protect themselves. When we look at some of the 
research post-disaster, we see increases of domestic violence, 
we see increased stress, we see an increase in suicide rates. 
And much of that seems to be tied to the actual stress of the 
post-recovery community and not having access to resources, not 
having access to jobs.
     So the things that we do in emergency management ahead of 
time in preparedness to ready our communities to better 
withstand these disasters I think could have a benefit on 
that--on those mental health repercussions in the aftermath.
     Mr. Beyer. Thank you very much. Madam Chair, I yield back.
     Chairwoman Sherrill. Thank you. And at this time I'd like 
to open it up for any Members who would like another 
opportunity to ask questions. Does anyone have any further 
questions?
     Mr. Beyer. I love the idea----
     Chairwoman Sherrill. [inaudible] I'd like to recognize 
Representative Beyer for 5 minutes.
     Mr. Beyer. Thank you. Thank you, Madam Chair. I think, Dr. 
Montano, it was your notion that we need to make FEMA an 
independent agency and give it Cabinet-level status. Can you 
expand on that a little?
     Dr. Montano. Certainly. So prior to 9/11 FEMA was a 
Cabinet-level independent agency. This afforded them a number 
of useful things, namely a direct line to the President when a 
disaster did happen, and a greater stature among the other 
Federal agencies that are of course very important to much of 
what we do in emergency management.
     Post 9/11, as DHS (Department of Homeland Security) was 
proposed and created, FEMA was incorporated under the 
Department. At the time there were former heads of FEMA, James 
Lee Witt, and other disaster researchers who warned that doing 
so could inhibit FEMA from meeting the needs across the 
country.
     Since that time, though, however, FEMA has stayed put, and 
there have been times where there were potential concerns about 
how well the Administrator of FEMA was able to connect with the 
President and the White House and just the overarching role and 
responsibility of FEMA within this huge department.
     So moving forward, as we think about changes post-COVID to 
our emergency management approach, to our public health 
approach, I do think that perhaps it might be wise to 
reconsider this idea of FEMA being an independent Cabinet-level 
agency again.
     Mr. Beyer. Thank you very much. I yield back, Madam Chair.
     Chairwoman Sherrill. Thank you. And do we have any further 
questions?
     Well, before we bring the hearing to a close, I want to 
thank our witnesses for testifying before the Committee today. 
The record will remain open for 2 weeks for additional 
statements from the Members and for any additional questions 
the Committee may ask of the witnesses.
     The witnesses are excused, and the hearing is now 
adjourned.
     [Whereupon, at 12:47 p.m., the Subcommittee was 
adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions




                   Answers to Post-Hearing Questions
Responses by Dr. Roxane Cohen Silver

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses by Dr. Samantha Montano

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                              Appendix II

                              ----------                              


                   Additional Material for the Record




           Letter submitted by Representative Mikie Sherrill
           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]           


                                 <all>
</pre></body></html>
